Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

80383
STATE OF NEW YORK,

AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

)

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 17th day of October 2019 deponent served 3 copies of the within

PETITION FOR A WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERYAND ELECTRONIC MAIL
Douglas J. Peterson
Nebraska Attorney General
211 5 State Capitol Building
Lincoln, NE 68509-8920
(402) 471-2683
James 0. Smith
Solicitor General
211 5 State Capitol Building
Lincoln, NE 68509-8920
[402) 471-2686
james.smith@nebraska.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 17, 2019, pursuant to Supreme
Court Rule 29.5( c). All parties required to b ~ j
~

:::;:_•di{)

Howard Daniels

Sworn to me this

October 17, 2019
NADIA R. OSWALD HAMID

Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Corn mis · Expires November 1□, 2019

Case Name: Jenkins v. Nebraska

Docket/Case No.

